U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

February 4, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Marcus Broadway v. United States, No. 20-836
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December 16,
2020. The government’s response is now due, after one extension, on February 22, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including March 24, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

cc:

See Attached Service List

Elizabeth B. Prelogar
Acting Solicitor General

20-0836
BROADWAY, MARCUS
USA

BOYD GARRIOTT
WILEY REIN LLP
1776 K STREET, NW
WASHINGTON, DC 20006
202-719-4487
BGARRIOTT@WILEY.LAW
THEODORE A. HOWARD
WILEY REIN LLP
1776 K STREET, N.W.
WASHINGTON, DC 20006
202-719-7120
THOWARD@WILEYREIN.COM
JARED ALAN MCCLAIN
THE NEW CIVIL LIBERTIES ALLIANCE
1225 19TH STREET NW
SUITE 450
WASHINGTON, DC 20036
856-305-0034
JARED.MCCLAIN@NCLA.ONMICROSOFT.CO
M

